No.
IN THE
SUPREME COURT OF THE UNITED STATES

COVIA DZELL SMITH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

MOTION FOR LEAVE TO EXCEED
WORD LIMITS IN PETITION FOR
DISCRETIONARY REVIEW

Paul K. Sun, Jr.
Counsel of Record
Kelly Margolis Dagger
Ellis & Winters LLP
Post Office Box 33550
Raleigh, North Carolina 27636
(919) 865-7000
Counsel for Petitioner
Covia Dzell Smith

MOTION FOR LEAVE TO EXCEED WORD LIMITS IN PETITION FOR
DISCRETIONARY REVIEW
For the reasons stated below, Appellant Covia Dzell Smith respectfully moves
for leave to file a petition for writ of certiorari in excess of the word limit set forth in
Supreme Court Rule 33.1(g)(i), not to exceed 12,000 words.
1.

After a jury trial, Mr. Smith appealed his convictions and sentence to

the United States Court of Appeals for the Fourth Circuit. Mr. Smith argued on
appeal that the district court made evidentiary errors that denied him a fair trial,
that the district court imposed a substantively unreasonable sentence, and that his
trial counsel provided constitutionally ineffective assistance at trial and
sentencing.

The Fourth Circuit rejected these arguments in an unpublished

opinion.
2.

At Mr. Smith’s request, the undersigned appointed counsel prepared a

petition for writ of certiorari. In addition to including all arguments Mr. Smith
raised on appeal to the Fourth Circuit, counsel also included an argument
challenging the application of the career offender Guideline to Mr. Smith, based on
a newly decided Fifth Circuit case unavailable at the time of Mr. Smith’s Fourth
Circuit appeal.
3.

Given the number and complexity of issues raised in the petition for

writ of certiorari, including issues about trial and sentencing, as well as trial
counsel’s ineffective assistance, Mr. Smith reasonably requires leave to exceed the
word limitation to file a petition not longer than 12,000 words, exclusive of those
portions not included in the word limitation by this Court’s rules. This expansion

1

of the word limitation will allow the undersigned counsel, consistent with Mr.
Smith’s desires, to raise all available issues in the petition.
For the reasons stated above, Mr. Smith respectfully requests that the Court
grant this motion and accept his petition for writ of certoriari filed on 29 March
2021.
Paul K. Sun, Jr
Paul K. Sun, Jr.
N.C. State Bar No. 16847
Kelly Margolis Dagger
N.C. State Bar No. 44329
ELLIS & WINTERS LLP
Post Office Box 33550
Raleigh, North Carolina 27636
Telephone: (919) 865-7000
Facsimile: (919) 865-7010
Counsel for Petitioner Covia Dzell Smith

2

